WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1217

Daniel Kristof Lak California, et al.
(Petitioner) vy, (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:

© lam filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Orange County Department of Child Support Services, Steven Eldred (in his Official Capacity and Individual
Capacity)

Please check the appropriate box:

© lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a

signed Wai n the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

 

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, et, NE, Washingto: Cc. 3).

   
      
 

Signature:

Date: 3/17/21

(Type or print) Name wjjj|iam L. Haluck

© wr. O Ms. O Mrs. O Miss
Firm Koeller, Nebeker, Carlson & Haluck, LLP
Address 3 Park Plaza, Ste. 1500
City & State Irvine, CA Zip 92614
Phone (949) 864-3436 Email haluck@knchlaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Daniel Lak, P.O. Box 321, San Juan Capistrano, CA 92693
ce: Shirley Sullinger, Esq., 300 South Spring Street, Ste. 1702, Los Angeles, CA 90013
